No. 19-1052
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ANDRE G. DEWBERRY, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with
copies of the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and
first-class mail, postage prepaid, this 24th day of April, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,019 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d). I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 24, 2020.

April 24, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of
Justice, in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to Charlene
Goodwin, Supervisory Case Management Specialist, Office of the Solicitor General, at
(202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone
number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

19-1052
DEWBERRY, ANDRE G.
USA
LISA S. BLATT
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, NW
WASHINGTON, DC 20005
202-434-5000
LBLATT@WC.COM
CHRISTOPHER S. SWIECICKI
SWIECICKI & MUSKETT, LLC
16100 CHESTERFIELD PARKWAY WEST
SUITE 308
CHESTERFIELD, MO 63017

VIA EMAIL

